HHS/OIG, Audit -"Audit of Medicaid School-Based Services in Oklahoma,"(A-06-01-00083)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid School-Based Services in Oklahoma," (A-06-01-00083)
April 11, 2003
Complete
Text of Report is available in PDF format (2.69 MB). Copies can also
be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report identified issues, which resulted in unallowable costs totaling
at least $1,243,446 federal share.  Further, school districts did not
obtain referrals for occupational therapy services or referrals for speech
therapy services, which resulted in additional unallowable costs totaling at
least $1,089,328 federal share.  We also could not reasonably determine
whether school districts met the state share requirement, which totaled $2,801,658
due to the various errors identified with their calculations, inclusion of
inappropriate expenditures, and use of inappropriate funding sources.  In
addition, we identified the following areas of concern needing corrective action:  (1)
the rates associated with school-based Medicaid services; (2) billing agency
involvement in school districts' school-based Medicaid programs; and (3) the
school-based health service providers' qualifications.  Recommendations
call for financial adjustments and internal control improvements.